No. 19-351
IN THE

Supreme Court of the United States
FEDERAL REPUBLIC OF GERMANY, a foreign state, and
STIFTUNG PREUSSICHER KULTURBESITZ,
Petitioners,

v.
ALAN PHILIPP, et al.,

Respondents.
On Writ Of Certiorari To The United States
Court Of Appeals For The District of Columbia Circuit
BRIEF OF AMICI CURIAE FOREIGN
INTERNATIONAL LAW SCHOLARS AND JURISTS IN
SUPPORT OF PETITIONERS AND REVERSAL
Lisa M. Geary
Counsel of Record
RMP, LLP
5519 Hackett Rd.
Springdale, AR 72762
(479) 443-2705
lgeary@rmp.law
Counsel for Amici Curiae

i
TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES ................................ iii
INTERESTS OF AMICI CURIAE ........................ 1
INTRODUCTION AND SUMMARY OF
ARGUMENT ......................................................... 6
ARGUMENT ....................................................... 11
I. THERE
IS
NO
APPLICABLE
EXCEPTION
TO
SOVEREIGN
IMMUNITY
UNDER
INTERNATIONAL LAW............................... 11
A. International Law Does Not
Recognize
A
Self-Standing
Immunity
Exception
For
International Crimes Or Other
Grave Breaches Of International
Law ......................................................... 12
B. International Law Does Not
Recognize A “Takings” Exception
To Immunity For Loss Of Tangible
Property Abroad .................................... 19
II. EVEN IF A “TAKINGS” EXCEPTION
APPLIED, THE ACT AT ISSUE WAS
NOT A “TAKING IN VIOLATION OF
INTERNATIONAL LAW” ............................. 22

ii
A. As
Understood
Under
International Law, The Concept of
Genocide Does Not Apply ...................... 22
B. Even If The Genocide Convention
Applies, The Alleged Acts Did Not
Constitute Genocide .............................. 25
1. There Is No Evidence The
1935 Transaction Was An Act
Of Genocide .................................... 25
2. There Is No Evidence Of The
Required Mens Rea ....................... 27
CONCLUSION .................................................... 33

iii
TABLE OF AUTHORITIES

Page(s)

International Cases
A-G Israel v. Eichmann,
36 I.L.R. 5 (Dist. Ct. Jerusalem 1961) ............. 32
Al-Adsani v. Gov’t of Kuwait (No 2),
107 I.L.R. 536 (U.K. Ct. App. 1996) ................. 14
Al-Adsani v. United Kingdom,
123 I.L.R. 64 (Eur. Ct. H.R. 2001) ................... 14
Application of the Convention on the Prevention
and Punishment of the Crime of Genocide
(Croatia v. Serb.),
2015 I.C.J. 3 (Feb. 3)........................23, 26, 28, 30
Application of the Convention on the Prevention
and Punishment of the Crime of Genocide
(Bosn. & Herz. v. Serb. & Montenegro),
2007 I.C.J. 43 (Feb. 26)......................... 24, 28, 30
Areios Pagos, Prefecture of Voiotia v. Germany,
129 I.L.R. 513 (Greece 2000) ............................ 15
Bouzari v. Islamic Republic of Iran,
71 O.R. 3d 675 (Can. Ont. C.A. 2004) .............. 14
Fang v. Jiang Zemin,
141 I.L.R. 702 (N.Z. High Ct. 2006) ................. 14

iv
Ferrini v. Germany,
128 I.L.R. 658 (It. Ct. of Cass. 2004) ................ 15
Holland v. Lampen-Wolff,
1 WLR 1573 (HL 2000) ....................................... 8
Jones v. Ministry of Interior of the Kingdom of
Saudi Arabia,
[2006] UKHL 26........................................ 7, 8, 14
Jones v. United Kingdom,
App. Nos. 34356/06, 40528/06 (Eur. Ct.
H.R. 2014) ....................................................14, 18
Jurisdictional Immunities of the State
(Ger. v. It.: Greece Intervening),
2012 I.C.J. 99 (Feb. 3)............ 6, 7, 8, 9, 15, 17, 20
Kalogeropoulou v. Greece & Germany,
129 I.L.R. 537 (Eur. Ct. H.R. 2002).................. 14
Kazemi Estate v. Islamic Republic of Iran,
3 S.C.R. 176 (Can. 2014)................................... 14
McElhinney v. Ireland,
123 I.L.R. 73 (Eur. Ct. H.R. 2001) ................... 20
Prosecutor v. Brđanin,
Case No. IT-99-36-T (Int’l Crim. Trib. for
the Former Yugoslavia Sept. 1, 2004).............. 26

v
Prosecutor v. Stakić,
Case No. IT-97-24-T (Int’l Crim. Trib.
for the Former Yugoslavia July 31, 2003) ..26, 30
Réunion Aérienne v. Socialist People’s Libyan
Arab Jamahiriya,
150 I.L.R. 630 (Fr. Ct. of Cass. 1e civ. 2011) ... 14
Zhang v. Zemin,
[2010] NSWLR 255 ........................................... 14
Statutes and Treaties
28 USC 1602 ............................................................. 5
28 USC 1605(a)(3) .............................................11, 99
Convention on the Prevention and Punishment
of the Crime of Genocide, Dec. 9, 1948,
78 U.N.T.S. 277......................................23, 25, 28
United Nations Convention on Jurisdictional
Immunities of States and Their
Property, Dec. 16, 2004,
G.A. Res. 59/38, annex ...............................6, 9, 21
Vienna Convention on the Law of Treaties,
May 23, 1969, 1155 U.N.T.S. 331 ..................... 13

vi
Other Authorities
Lars Berster, Article II, in CONVENTION ON THE
PREVENTION AND PUNISHMENT OF THE CRIME
OF GENOCIDE: A COMMENTARY
(Christian J. Tams, Lars Berster, & Bjorn
Schiffbauer, eds. 2014) ..................................... 26
Patrick M. de Winter, The Sacral Treasure
of the Guelphs, 72 THE BULLETIN OF THE
CLEVELAND MUSEUM OF ART 2 (March 1985) ... 31
HAZEL FOX & PHILIPPA WEBB, THE LAW OF
STATE IMMUNITY (3d ed. 2015) .................... 12, 20
Thomas D. Grant, Article 5, in THE UNITED
NATIONS CONVENTION ON JURISDICTIONAL
IMMUNITIES OF STATES AND THEIR PROPERTY:
A COMMENTARY (Roger O’Keefe &
Christian J. Tams, eds. 2013) ............................ 9
Gerhard Hafner, Historical Background to the
Convention, in THE UNITED NATIONS
CONVENTION ON JURISDICTIONAL IMMUNITIES
OF STATES AND THEIR PROPERTY:
A COMMENTARY (Roger O’Keefe &
Christian J. Tams, eds. 2013) .......................... 14
Matthew Lippman, The Drafting of the 1948
Convention on the Prevention and
Punishment of the Crime of Genocide,
3 B.U. INT’L L. J. 1 (1985) ................................. 29

vii

Roger O’Keefe, State Immunity and Human
Rights: Heads and Walls, Hearts and Minds,
44 VAND. J. OF TRANSNAT’L L. 999 (2011) ......... 17
RESTATEMENT (FOURTH) OF THE FOREIGN
RELATIONS LAW OF THE UNITED STATES
§ 455 (2018) ....................................................... 12
WILLIAM SCHABAS, GENOCIDE IN INTERNATIONAL
LAW (2d ed. 2009) ........................................ 28, 29
Sompong Sucharitkul (Special Rapporteur),
Fifth Rep. on the Jurisdictional Immunities
of States and Their Property,
U.N. Doc. A/CN.4/363 (Mar. 22, 1983) ............. 21
United Nations Diplomatic Conf. of
Plenipotentiaries on the Establishment of
an International Criminal Court, Proposal
Submitted by the United States of America,
“Annex on Definitional Elements for Part
Two Crimes,” U.N. Doc. A/CONF.183/C.1/L.10
(July 9, 1998) .................................................... 29
Working Group on Jurisdictional Immunities,
Statement by the Chairman of the
Working Group, U.N. Doc. A/C.6/54/L.12
(Nov. 12, 1999) .................................................. 13
XIAODONG YANG, STATE IMMUNITY IN
INTERNATIONAL LAW (2013) .............................. 19

1
INTERESTS OF AMICI CURIAE 1
Amici Curiae are foreign scholars of public
international law who have published numerous
works on the issues that are central to this case.
They have also participated as counsel and experts
in proceedings involving matters of State immunity
and the notion of genocide before international
courts and tribunals such as the International
Criminal Tribunal for the Former Yugoslavia
(“ICTY”), the International Criminal Court (“ICC”),
the European Court of Human Rights (“ECHR”) and
the International Court of Justice (“ICJ”).
Lars Berster is Associate Professor of
International Criminal Law at the University of
Cologne and acting professor at the University of
Freiburg. He has written numerous publications on
questions of international criminal law and has coauthored, with Christian J. Tams, a leading treatise
on the Convention on the Prevention and
Punishment of the Crime of Genocide.
Chester Brown is Professor of International Law
and International Arbitration at the University of
Sydney Law School. He teaches, researches, and
practices in public international law and
No counsel for a party authored this brief in whole or in part.
No one other than amici curiae and amici’s counsel made a
monetary contribution intended to fund the preparation or
submission of this brief. The parties have consented to the
filing of this brief, and copies of the letters of consent are on file
with the Clerk’s Office.
1

2
international arbitration, and he has appeared as
counsel in proceedings before the ICJ, the IranUnited States Claims Tribunal, inter-State and
investor-State arbitral tribunals, as well as in interState conciliation proceedings and international
commercial arbitrations. Professor Brown is a
contributing author of several entries in THE UNITED
NATIONS
CONVENTION
ON
JURISDICTIONAL
IMMUNITIES OF STATES AND THEIR PROPERTY: A
COMMENTARY (2013), co-edited by Roger O’Keefe and
Christian Tams.
Andrea Gattini is Professor of International Law
at the Law School of the University of Padova (Italy).
He has published extensively in the field of
international responsibility, international dispute
resolution, state immunity, and human rights.
Professor Gattini has also participated in cases
before the ICJ, including as counsel in the 2012
Jurisdictional Immunities case.
Robert Kolb is Professor of International Law at
the University of Geneva. He is widely published in
the field of international law and international
humanitarian law. Professor Kolb has worked as a
legal adviser to the International Committee of the
Red Cross and the Swiss Federal Department of
Foreign Affairs, and he has served on the Board of
Directors of the University Centre for International
Humanitarian Law. Professor Kolb has also served
as counsel in cases before the ICJ and other
international arbitral tribunals.

3
Roger O’Keefe is Professor of International Law
at Bocconi University, Milan, and an honorary
Professor of Laws at University College, London.
Professor O’Keefe’s extensive publications in the
field of international law include THE UNITED
NATIONS
CONVENTION
ON
JURISDICTIONAL
IMMUNITIES OF STATES AND THEIR PROPERTY: A
COMMENTARY (Roger O’Keefe & Christian J. Tams
eds. 2013), which he co-edited with Christian Tams
and to which he contributed thirteen chapters as
author or co-author, and INTERNATIONAL CRIMINAL
LAW (2015), a leading treatise on international
crimes. Professor O’Keefe has been consulted by
governments and international organizations on
questions of foreign sovereign immunity, and he has
appeared as amicus curiae before the ICC.
Stefan Talmon is Professor of Public Law, Public
International Law and European Union Law, and
Director at the Institute for Public International
Law at the University of Bonn. He is also a
Supernumerary Fellow of St. Anne’s College,
Oxford, and for the academic year 2020-21 a Visiting
Fellow of All Souls College, Oxford. He frequently
advises States and corporations on questions of
public international law, and he has appeared as
counsel and expert before the ICJ, the ECHR, and
international arbitral tribunals.
Christian J. Tams is Professor of International
Law at the University of Glasgow and Director of the
Glasgow Centre for International Law and Security.

4
Professor Tams has published numerous books and
articles on questions of international law, including
THE CONVENTION ON THE PREVENTION AND
PUNISHMENT OF THE CRIME OF GENOCIDE: A
COMMENTARY (2014), which he co-authored with
Lars Berster; THE UNITED NATIONS CONVENTION ON
JURISDICTIONAL IMMUNITIES OF STATES AND THEIR
PROPERTY: A COMMENTARY (2013), co-edited with
Professor O'Keefe; and a leading treatise on the
World Court—THE STATUTE OF THE INTERNATIONAL
COURT OF JUSTICE (2019)—which he co-edited with
Andreas Zimmermann. Professor Tams has
appeared as counsel and expert in cases before the
ICJ and international arbitral tribunals.
Christian Tomuschat is Professor Emeritus of
Public International Law and European Law at
Humboldt University in Berlin, where he previously
directed the Institute of International and European
Law. Professor Tomuschat is a member of the
Institut de Droit International. He previously served
as a member of the United Nations Human Rights
Committee, the International Commission of
Jurists, member and
UN Chairman of the
International Law Commission; and President of the
Court of Conciliation and Arbitration within the
OSCE. Professor Tomuschat has acted as counsel
before the Court of Justice of the European
Community/Union, the ECHR, and the ICJ, and he
has authored numerous books and articles on issues
of human rights and international law.

5
Andreas
Zimmermann
is
Professor
of
International and European Law at the University
of Potsdam and Director of the Potsdam Centre of
Human Rights. He has served as a legal adviser to
the German delegation to the United Nations
Diplomatic Conference on the Establishment of an
International Criminal Court and is a member of the
United Nations Human Rights Committee. He has
acted as counsel in several cases and proceedings
before the ICJ, the Iran-US Claims Tribunal, the
ICTY, the ICC and the Committee for the
Elimination of All Forms of Racial Discrimination.
Professor Zimmermann has also served as a judge
ad hoc in cases before the ECHR. He is the lead
editor of THE STATUTE OF THE INTERNATIONAL COURT
OF JUSTICE (2019), the leading treatise on the World
Court.
As experts on the law of immunity, amici
respectfully submit this brief to provide a full
statement of the principles of customary
international law regarding State immunity, which
may be helpful to the Court in resolving this case. As
explained below, amici believe the D.C. Circuit’s
opinion is at odds with customary international law
concepts regarding State immunity and genocide.
The decision below also creates a conflict between
the interpretation of the Foreign Sovereign
Immunities Act of 1976, 28 USC 1602 et seq.
(“FSIA”) and settled principles of international law,
as clarified in the jurisprudence of international
courts before which amici have appeared.

6
INTRODUCTION AND SUMMARY OF
ARGUMENT
While this case will be assessed on the basis of
the rules of State immunity set out in the FSIA, this
brief centers on the international law framework
governing State immunity. That international law
framework is the product of centuries of State
practice of forum States giving effect to the
immunity of foreign States, their representatives,
and their agencies and instrumentalities. Central
features of this framework have been affirmed in the
recent case-law of the ICJ—the principal judicial
organ of the United Nations. Many aspects have also
been clarified in long-standing inter-state
negotiations resulting in the adoption, in 2004, of
the United Nations Convention on Jurisdictional
Immunities of States and Their Property (“State
Immunity Convention” or “Convention”), Dec. 16,
2004, G.A. Res. 59/38, annex. 2 Although the State
Immunity Convention is not binding upon the
United States as a matter of treaty law, it reflects
Statements made in the process of elaborating on the State
Immunity Convention reflect widespread agreement on core
aspects of the customary international rules governing State
immunity. As the ICJ has emphasized, “State practice of
particular significance is to be found in . . . the statements
made by States, first in the course of the extensive study of the
subject by the International Law Commission and then in the
context of the adoption of the United Nations Convention.”
Jurisdictional Immunities of the State (Ger. v. It.: Greece
Intervening) (“Jurisdictional Immunities”), Judgment, 2012
I.C.J. at 122 (Feb. 3).
2

7
accepted rules of customary international law and is
considered “the most authoritative statement
available
on
the
current
international
understanding of the limits of state immunity in
civil cases.” Jones v. Ministry of Interior of the
Kingdom of Saudi Arabia, [2006] UKHL 26, ¶26
(appeal taken from Eng.).
This brief proceeds from three undisputed
starting points about the customary international
law of State immunity:
First, States are bound, under international law,
to respect the sovereign immunity of foreign States.
Immunity is not a matter of comity, but of binding
international obligation. The ICJ authoritatively
affirmed this position in the Jurisdictional
Immunities case. It noted both parties’ agreement
“that immunity is governed by international law and
is not a mere matter of comity”:
States generally proceed on the basis that
there is a right to immunity under
international
law,
together
with
a
corresponding obligation on the part of other
States to respect and give effect to that
immunity. ... [T]he rule of State immunity
occupies an important place in international
law and international relations. It derives
from the principle of sovereign equality of
States, which, as Article 2, paragraph 1, of the
Charter of the United Nations makes clear, is

8
one of the fundamental principles of the
international legal order.
Jurisdictional Immunities, 2012 I.C.J. at 122-24. A
passage from Lord Hoffmann’s opinion in the House
of Lords’ judgment in Jones gives eloquent
expression to this understanding:
[S]tate immunity is not a “self-imposed
restriction on the jurisdiction of its courts
which the United Kingdom has chosen to
adopt” and which it can, as a matter of
discretion, relax or abandon. It is imposed by
international law without any discrimination
between one state and another.
Jones, [2006] UKHL 26, ¶ 101 (quoting Holland v.
Lampen-Wolff, 1 WLR 1573, 1588 (HL 2000)). In
requiring States to respect the immunity of other
States, international law formulates minimum
standards to be observed. States remain free, subject
to other international legal obligations, to accord
immunity in a wider set of circumstances, see
Jurisdictional Immunities, 2012 I.C.J. at 122-23,
and they often do.
Second, under international law, States are
presumed to enjoy immunity in proceedings before
foreign State courts. This presumption is subject to
exceptions, but it marks the starting point of any
inquiry regarding State immunity from suit.
Drawing inspiration from domestic immunity
statutes (such as the FSIA), Article 5 of the State

9
Immunity Convention stipulates that “[a] State
enjoys immunity, in respect of itself and its property,
from the jurisdiction of the courts of another State
subject to the provisions of the present Convention.”
G.A. Res. 59/38, annex, at 4 (art. 5). This means that,
to the extent a State or its instrumentalities qualify
as prima facie immune, international law places
“the burden of proof ... on the claimant to prove that
the State is not immune.” To discharge that burden,
the claimant will have to establish that an immunity
exception recognized in international law applies.
See Thomas D. Grant, Article 5, in THE UNITED
NATIONS
CONVENTION
ON
JURISDICTIONAL
IMMUNITIES OF STATES AND THEIR PROPERTY: A
COMMENTARY 103 (Roger O’Keefe & Christian J.
Tams, eds. 2013) (hereinafter “IMMUNITIES
CONVENTION COMMENTARY”). “Exceptions to the
immunity of the State represent a departure from
the principle of sovereign equality.” Jurisdictional
Immunities, 2012 I.C.J. at 123-24.
Third, domestic courts play an important role in
ensuring respect for State immunity. As the State
Immunity Convention puts it, States must “ensure
that its courts determine on their own initiative that
the immunity of that other State … is respected.”
G.A. Res. 59/38, annex, at 4 (art. 6(1)). This
determination must be made at the outset of a
proceeding, as “immunity from jurisdiction … is an
immunity not merely from being subjected to an
adverse judgment but from being subjected to the
trial process.” Jurisdictional Immunities, 2012 I.C.J.

10
at 136 (emphasis added). Conversely, by upholding
a plea of immunity, a domestic court does not take a
view on the merits of the underlying claim. Even less
does it endorse the foreign State’s conduct that has
been challenged. “[R]egulat[ing] the exercise of
jurisdiction in respect of particular conduct,
[immunity] ... is thus entirely distinct from the
substantive law which determines whether that
conduct is lawful or unlawful.” Id. at 140.
With these principles in mind, this brief will
make the following two points: First, there is no
applicable exception to sovereign immunity in this
case
under
customary
international
law.
International law does not recognize a freestanding
exception to immunity for international crimes like
genocide or other grave breaches of international
law. Nor does international law recognize a
“takings” exception to immunity for loss of tangible
property abroad.
Second, even if there were a recognized immunity
exception for genocidal acts, the 1935 acquisition of
the Welfenschatz could not have constituted
genocide under the accepted international law
definition of that term. In reaching a contrary
conclusion, the D.C. Circuit rendered a decision that
is squarely at odds with customary international
law.

11
ARGUMENT
I.

THERE IS NO APPLICABLE EXCEPTION
TO SOVEREIGN IMMUNITY UNDER
INTERNATIONAL LAW

The primary question in this case is whether the
(then) State of Prussia’s acquisition, in 1935, of parts
of the Guelph Treasure is covered by one of the
FSIA’s limited exceptions to sovereign immunity.
Section 1605(a)(3)—the so-called “expropriation
exception”—is the sole FSIA exception that has been
invoked in this case. That section requires a “taking”
that occurs “in violation of international law.” 28
USC 1605(a)(3). It targets sovereign, governmental
conduct affecting property interests to permit
judicial redress for infractions of binding rules of
international law.
The parties disagree on whether the
“expropriation exception” covers conduct that took
place outside the United States (in Germany) and
between nationals of a foreign State (Germany), as
was the case here, but in line with its focus on the
international legal framework, this brief outlines
how customary international law treats such an
alleged taking occurring outside the forum State,
between foreign nationals. As explained below,
under international law such conduct would not be
covered by any accepted immunity exception.
At the outset, the “expropriation exception” is a
unique feature of the FSIA. It has no direct

12
equivalent in customary international law or in the
domestic laws of other States. See HAZEL FOX &
PHILIPPA WEBB, THE LAW OF STATE IMMUNITY 270
(3d ed. 2015); RESTATEMENT (FOURTH) OF THE
FOREIGN RELATIONS LAW OF THE UNITED STATES §
455 n. 15 (2018). At no point during the preparation
of the State Immunity Convention was the inclusion
of an equivalent provision proposed with any chance
of success. That said, there have been long-standing
debates in international law on the questions
underlying the expropriation exception, including
(A) whether proceedings concerning particular
breaches of international law should be covered by
an immunity exception, and (B) how the
international law of immunity should address
instances in which a State interferes with property
interests on its own soil. Customary international
law has answered both questions in favor of
immunity.
A. International Law Does Not Recognize A
Self-Standing Immunity Exception For
International Crimes Or Other Grave
Breaches Of International Law
While the FSIA’s expropriation exception
concerns “takings” in violation of international law,
customary international law does not focus on the
issue of a “taking”; instead, it looks at the broader
question of whether immunity should yield where a
State is accused of grave breaches of international
law. The debate on that question has centered on

13
breaches of international law that qualify as an
“international crime” or as a violation of a
peremptory norm of international law (jus cogens). 3
Even for this narrow circle of alleged breaches,
however, customary international law does not
recognize an immunity exception. In fact, States, as
well as international and domestic courts, have
firmly rejected claims that State immunity should
yield where States are accused of egregious conduct.
The drafters of the State Immunity Convention
specifically considered the introduction of a limited
immunity exception for grave breaches of
international law, notably violations of peremptory
norms of international law. In 1999, they concluded
the matter was not “ripe” for inclusion in the
Convention. See Working Group on Jurisdictional
Immunities, Statement by the Chairman of the
Working Group, UN Doc. A/C.6/54/L.12, ¶ 47 (Nov.
12, 1999). That decision was confirmed in 2003,
during the final stages of the drafting process. The
Chairman of the Ad Hoc Committee in which the
deliberations took place later explained that “[t]he
general view ... was that the denial of immunity in
such situations [of alleged jus cogens violations] had
The Vienna Convention on the Law of Treaties defines a jus
cogens norm as “a norm accepted and recognized by the
international community of States as a whole as a norm from
which no derogation is permitted.” 1155 U.N.T.S. 331, art. 53
(May 23, 1969). For the avoidance of doubt, we note that, for
the purposes of these proceedings, it would further need to be
shown that the concept of jus cogens could retroactively apply
to conduct that took place in 1935.

3

14
not attained, and was unlikely to attain, the status
of a rule of customary international law.” Gerhard
Hafner, Historical Background to the Convention, in
IMMUNITIES CONVENTION COMMENTARY, supra, at 9.
Both domestic and international courts have
confirmed this approach. For example, the ECHR
has regularly rejected claims that immunity should
yield where a State is accused of grave breaches of
international law, such as acts of torture or crimes
against humanity. See, e.g., Al-Adsani v. United
Kingdom, 123 I.L.R. 64, ¶¶ 53-67 (Eur. Ct. H.R.
2001); Jones v. United Kingdom, App. Nos.
34356/06, 40528/06, ¶ 198 (Eur. Ct. H.R. 2014);
Kalogeropoulou v. Greece & Germany, 129 I.L.R. 537
(Eur. Ct. H.R. 2002). In the case of Al Adsani, the
ECHR recognized that the customary international
law rule of immunity limited the due process rights
of applicants, even where they brought damages
claims for alleged torture, which, like genocide,
constitutes a violation of jus cogens. Al-Adsani, 123
I.L.R. 64, ¶¶ 53-67. The clear majority of domestic
courts have reached the same result. 4

See, e.g., Kazemi Estate v. Islamic Republic of Iran, 3 S.C.R.
176 (Can. 2014); Réunion Aérienne v. Socialist People’s Libyan
Arab Jamahiriya, 150 I.L.R. 630 (Fr. Ct. of Cass. 1e civ. 2011);
Zhang v. Zemin, [2010] NSWLR 255; Jones, [2006] UKHL 26;
Fang v. Jiang Zemin, 141 I.L.R. 702 (N.Z. High Ct. 2006);
Bouzari v. Islamic Republic of Iran, 71 O.R. 3d 675 (Can. Ont.
C.A. 2004); Al-Adsani v. Gov’t of Kuwait (No 2), 107 I.L.R. 536
(U.K. Ct. App. 1996).

4

15
The Jurisdictional Immunities case before the
ICJ is particularly relevant here. It turned on
whether Italian courts were required to respect
Germany’s claim to immunity in proceedings for war
crimes committed by German troops during World
War II. The ICJ noted that Germany’s conduct
undoubtedly violated fundamental rules of
international law, but it nevertheless upheld
Germany’s claim to immunity based on a detailed
analysis of international practice and jurisprudence.
See Jurisdictional Immunities, 2012 I.C.J. at 13542. It concluded that “under customary
international law as it presently stands, a State is
not deprived of immunity by reason of the fact that
it is accused of serious violations of international
human rights law or the international law of armed
conflict.” Id. at 131. Even if it could be established
that “proceedings in the Italian courts involved
violations of jus cogens rules” this would not affect
“the applicability of the customary international law
on State immunity.” Id. at 142.
In reaching this result, the ICJ relied on the
drafters’ decision not to include a jus cogens
In exceptional circumstances, courts in Greece and Italy have
asserted the existence of an immunity exception for
international crimes. See, e.g., Areios Pagos, Prefecture of
Voiotia v. Germany, 129 I.L.R. 513 (Greece 2000); Ferrini v.
Germany, 128 I.L.R. 658 (It. Ct. of Cass. 2004). However, the
decisions of these courts have been widely criticized and
remain outliers. They are also in direct conflict with the ICJ’s
judgment in the Jurisdictional Immunities case, which is
binding on those courts under Article 94 of the U.N. charter.

16
exception in the State Immunity Convention. The
court added that, when the Sixth (Legal) Committee
of the U.N. General Assembly discussed the matter,
“no State suggested that a jus cogens limitation to
immunity should be included in the Convention.” Id.
at 138-39. The ICJ also emphasized the fact that the
domestic courts of a significant number of States had
recognized Germany’s right to immunity in
proceedings concerning war crimes or other grave
breaches of international law committed on their
territory during World War II. See id. at 132-33, 137
(citing decisions from the Supreme Court of Poland,
the Constitutional Court of Slovenia, the French
Cour de Cassation, and courts in Brazil and
Belgium, among others).
Finally, the ICJ held that it was required to
uphold Germany’s claim to immunity because, as
noted above, immunity acts as a procedural bar to
protect foreign States from being subjected to the
trial process. In this respect, the ICJ clearly noted
the risks of admitting an immunity exception for
grave breaches of international law:
If immunity were to be dependent upon the
State actually having committed a serious
violation of international human rights law or
the law of armed conflict, then it would
become necessary for the national court to
hold an enquiry into the merits in order to
determine whether it had jurisdiction. If, on
the other hand, the mere allegation that the

17
State had committed such wrongful acts were
to be sufficient to deprive the State of its
entitlement to immunity, immunity could, in
effect be negated simply by skilful
construction of the claim.
Id. at 136.
The proceedings before the D.C. Circuit Court
bear out precisely these risks. Under the approach
adopted by the Circuit Court, Germany and the
Stiftung Preußischer Kulturbesitz are denied State
immunity unless they argue, and successfully
demonstrate, that the 1935 purchase of the
Welfenschatz did not constitute an act of genocide.
This subverts the presumption of immunity and
runs counter to the understanding of immunity as a
procedural bar protecting States from being
subjected to the trial process.
The ICJ’s judgment in Jurisdictional Immunities
is widely considered to have settled the debate as to
whether there is an immunity exception for alleged
international crimes. According to one commentator,
the decision was the “final nail in the coffin of
attempts to circumvent state immunity in domestic
civil proceedings.” Roger O’Keefe, State Immunity
and Human Rights: Heads and Walls, Hearts and
Minds, 44 VAND. J. OF TRANS’L L. 999, 1032 (2011).
The ECHR has similarly described the effect of the
ICJ’s decision:
[I]t is not necessary for the [ECHR] to

18
examine all of these developments [in
domestic case-law] in detail since the recent
judgment of the ICJ in Germany v. Italy [the
Jurisdictional Immunities case] ... —which
must be considered by this Court as
authoritative as regards the content of
customary
international
law—clearly
establishes that, by February 2012, no jus
cogens exception to State immunity had yet
crystallized.
Jones, 2014 Eur. Ct. H.R. at 52.
By firmly rejecting claims that immunity should
yield where States are accused of having committed
grave breaches of international law, States as well
as domestic and international courts have
underscored the crucial importance of respecting
State immunity. 5 The Circuit Court’s decision in this
case undermines that principle and is therefore in
conflict with customary international law.

Indeed, a number of States including Switzerland, France,
Spain, Austria, and Belgium, have submitted notes verbale to
the State Department in this case, expressing their view that
Germany is entitled to immunity under customary
international law and the law of their domestic States. See Br.
for Pet’rs at 9 n.3; Pet’r’s Request to Lodge Materials Pursuant
to Rule 32.3 (Sept. 4, 2020). As explained in this brief, rejecting
that claim of immunity under a purported “takings” exception
deviates from settled principles of international law and
creates an unnecessary conflict between those principles and
the FSIA.

5

19
B. International Law Does Not Recognize A
“Takings” Exception To Immunity For
Loss Of Tangible Property Abroad
The importance of State immunity is also
reflected in debates over governmental interferences
with property interests. As noted above, customary
international law does not recognize an equivalent
to the FSIA’s expropriation exception. However,
customary international law does address the
tension between State immunity and the protection
of property interests against governmental
interference, which underlies section 1605(a)(3). The
customary international law approach reflects a
firm, widely shared agreement on the importance of
a territorial nexus. As noted by one leading scholar,
“[t]he principle of territoriality lies at the root of the
issue of State immunity” and is “the most important
rationale for denying immunity.” XIAODONG YANG,
STATE IMMUNITY IN INTERNATIONAL LAW 73 (2013).
In line with this territorial focus, customary
international law recognizes a number of exceptions
to immunity for conduct taking place on the territory
of the forum State. One such exception, a “tort
exception” to immunity, covers proceedings relating
to compensation for personal injury or damage to, or
loss of, tangible property, caused by the State.
Included in Article 12 of the State Immunity
Convention, the “tort exception” to immunity has
been described as “open[ing] the way ... to calling
States to account under national law for damage

20
resulting from governmental acts performed in the
exercise of sovereign authority.” FOX, supra, at 468.
In that sense, the so-called “tort exception” could be
said to bear some similarity to the expropriation
exception, but there is still a question as to whether
such an exception is accepted in customary
international law. 6 Even if it were, it is beyond doubt
that this alleged immunity exception is strictly
limited to “territorial torts.” According to the text of
Article 12, it requires a dual territorial nexus:
Unless otherwise agreed between the States
concerned, a State cannot invoke immunity
from jurisdiction before a court of another
State which is otherwise competent in a
proceeding which relates to pecuniary
compensation for death or injury to the
person, or damage to or loss of tangible
property, caused by an act or omission which
is alleged to be attributable to the State, if the
act or omission occurred in whole or in part in
the territory of that other State and if the
author of the act or omission was present in

In its 2001 judgment in McElhinney v. Ireland, the ECHR
observed that agreement on this point was “by no means
universal.” McElhinney, 123 I.L.R. 73, 85 (Eur. Ct. H.R. 2001).
The ICJ did not answer that question in 2012, noting that it
was “not called upon ... to resolve the question whether there
is in customary international law a ‘tort exception’ to State
immunity applicable to acta jure imperii in general.”
Jurisdictional Immunities, 2012 I.C.J. at 127-35.
6

21
that territory at the time of the act or
omission.
G.A. Res. 59/38, annex, at 7 (art. 12) (emphases
added).
The International Law Commission’s Special
Rapporteur, responsible for preparing a draft
provision that served as a model for Article 12,
explained the basis for the rule:
The exercise of jurisdiction by the court of the
place where the damage has occurred is
probably the best guarantee of sound and
swift justice. Adequate relief can be expected
as the court is in reality a forum conveniens
or, indeed, a most practical and convenient
judicial authority with an unchallenged claim
to exercise jurisdiction and facilities to
establish or disprove evidence of liability and
to assess compensation.
Sompong Sucharitkul (Special Rapporteur), Fifth
Rep. on the Jurisdictional Immunities of States and
Their Property, U.N. Doc. A/CN.4/363, ¶ 69 (Mar. 22,
1983).
Thus, even under a “tort exception” to immunity,
where a State, acting as a sovereign, interferes with
property interests on its own soil, it continues to
benefit from immunity under international law. In
the present instance, it is undisputed that the
alleged “taking” of the Welfenschatz took place in

22
Germany, between German nationals. Thus, if
assessed against the standards of customary
international law, it would not be covered by any
exception to immunity concerning sovereign
interference with property rights.
II.

EVEN IF A “TAKINGS” EXCEPTION
APPLIED, THE ACT AT ISSUE WAS NOT A
“TAKING
IN
VIOLATION
OF
INTERNATIONAL LAW”

Although
customary
international
law
recognizes no exception to immunity for sovereign
interference with property rights on its own soil, see
supra Part I.B, the D.C. Circuit held that the FSIA’s
expropriation exception nevertheless applied in this
case by finding that the alleged expropriation
constituted an act of genocide. As explained above,
that construction of the FSIA departs from the
accepted concept of what constitutes a “taking”
under international law, and it is erroneously based
on an immunity exception for international crimes
like genocide that simply does not exist. See supra
Part I. In any event, even if there were a recognized
immunity exception for genocidal acts under
customary international law, the alleged act in
question still would not have come within its scope.
A. As Understood Under International Law,
The Concept of Genocide Does Not Apply
The D.C. Circuit determined that the acts at
issue
constituted
genocide
based
on
its

23
interpretation of the Convention on the Prevention
and Punishment of the Crime of Genocide, Dec. 9,
1948, 78 U.N.T.S. 277 (“Genocide Convention”). But
two accepted features of international law illustrate
why the Genocide Convention and the concept of
genocide do not apply.
First, the Genocide Convention does not have
retroactive effect. See Application of the Convention
on the Prevention and Punishment of the Crime of
Genocide (Croatia v. Serb.) (“Croatia Genocide
Case”), 2015 I.C.J. 3, 51 (Feb. 3). Thus, while the
D.C. Circuit looked to the 1948 Genocide Convention
in determining whether the alleged act, in 1935,
constituted genocide, the convention does not apply
to an act that occurred 13 years prior to its
enactment. Nor did the Nuremberg Statute or
Control Council Law No. 10—both adopted to deal
with the crimes of the Nazi perpetrators—embrace
the notion of genocide. It is therefore questionable
whether the concept of genocide even existed in 1935
as a matter of customary international law.
Second, even if the concept of genocide existed in
1935, it could not have been broader in scope than
the carefully-crafted definition that the Genocide
Convention adopted in 1948. International courts
and tribunals that have applied that definition, such
as the ICTY, the International Criminal Tribunal for
Rwanda (“ICTR”), and the ICJ, look only at the
particular act(s) in question—not other acts that
occurred before or after the alleged action—to

24
determine if a genocidal act has occurred. Put
differently, the focus of their inquiry is whether a
given act qualifies as an act of genocide, not whether
other acts of genocide were or may have been
committed against the same group either before or
after the particular act in question.
For example, in its judgment dealing with the
conflict in Bosnia and Herzegovina, the ICJ,
although finding that the mass killing of Muslims at
Srebrenica constituted genocide, squarely rejected
the argument that previous measures directed
against the same ethnic group had also constituted
acts of genocide because they had also involved the
killing of members of that ethnic group. See
Application of the Convention on the Prevention and
Punishment of the Crime of Genocide (Bosn. & Herz.
v. Serb. & Montenegro) (“Bosnia Genocide Case”),
Judgment, 2007 I.C.J. 43, 198 (Feb. 26). Instead, the
ICJ limited its analysis to the particular acts at
issue without looking at other actions that had been
taken against the same protected group. See id.
Thus, even acts of “ethnic cleansing” aimed at the
displacement of members of a protected group, the
ICJ found, would not amount to genocide unless
such displacement took place in circumstances that
themselves amount to genocide. See id. at 122-23.
Here, the D.C. Circuit looked at acts that
occurred before and after the act in question in
determining whether it was one of genocide. In doing
so, the court applied a broader understanding of

25
genocide than the one that exists under customary
international law.
B. Even If The Genocide Convention
Applies, The Alleged Acts Did Not
Constitute Genocide
These accepted principles of the concept of
genocide make clear that the Genocide Convention
does not apply. But even if the Convention applies,
and even if the Court were to assume that all the
facts are exactly as the Plaintiffs allege in their
complaint, those facts still would not amount to
genocide under international law.
1. There Is No Evidence The 1935
Transaction Was An Act Of
Genocide
The category of genocide that the D.C. Circuit
considered in this case requires a finding that the
responsible individuals “[d]eliberately inflict[ed] on
the group conditions of life calculated to bring about
its physical destruction ….” See Genocide
Convention, 78 U.N.T.S. at 280 (art. II(c)). 7 That
category of genocide prohibits specific acts when
committed with the intention to destroy physically a
The other categories of genocide include killing members of
the group (Article II(a)), causing serious bodily or mental harm
to members of the group (Article II(b)), imposing measures
intended to prevent births within the group (Article II(d)), and
forcibly transferring children to another group (Article II(e)).
See 78 U.N.T.S. at 280.
7

26
protected group in whole or in part. As seen in its
very wording, this category applies only to acts of
“physical destruction”; the perpetrator must seek the
death of the members of the protected group on
whom the acts are inflicted, or deprive them of their
essential means of livelihood. See id. (emphasis
added); Croatia Genocide Case, 2015 I.C.J. at 70
(quoting Prosecutor v. Stakić, Case No. IT-97-24-T,
Judgment, ¶¶ 517, 518 (Int’l Crim. Trib. for the
Former Yugoslavia July 31, 2003)).
At most, such acts may include the deprivation of
food, medical care, shelter or clothing; lack of
hygiene; the systematic expulsion from homes; or
exhaustion as a result of excessive work or physical
exertion. Croatia Genocide Case, 2015 I.C.J. at 70
(quoting Prosecutor v. Brđanin, Case No. IT-99-36T, Judgment, ¶ 691 (Int’l Crim. Trib. for the Former
Yugoslavia Sept. 1, 2004)). The paradigmatic
example the drafters had in mind were the
physically destructive living conditions in the
Jewish ghettos in German-occupied territories
during World War II. See Lars Berster, Article II, in
CONVENTION ON THE PREVENTION AND PUNISHMENT
OF THE CRIME OF GENOCIDE: A COMMENTARY 122 n.
333 (Christian J. Tams, Lars Berster, & Bjorn
Schiffbauer, eds. 2014).
Because the D.C. Circuit determined Article II(c)
was the only relevant category of genocide in this
case, it was required to make a finding that, by
means of the purchase in question, the responsible

27
individuals inflicted on the sellers conditions of life
calculated to bring about the physical destruction of
the Jewish population in whole or in part. Nothing
about the act in question, however, suggests that the
1935 purchase of the Welfenschatz could plausibly
fit this standard. Even accepting as true all of the
allegations in the Plaintiffs’ Complaint, there is no
allegation that, through the 1935 sale of the
Welfenschatz, the sellers were subjected to
conditions of life calculated to bring about the
physical destruction of the Jewish population in
whole or in part.
Nor did the D.C. Circuit make any findings to
that effect. The act in question was a legal
transaction, and this transaction did not inflict on
the sellers conditions of life calculated to physically
destroy them as members of a protected group. In
the absence of any such findings or allegations, there
was no basis for the court to have concluded that the
transaction in question was an act of genocide. An
allegedly forcible purchase of part of the
Welfenschatz for 4.25 million Reichsmark, even
assuming it took place at a price below market value,
is simply not what the drafters of the Genocide
Convention had in mind when defining the acts that
constitute genocide.
2. There Is No Evidence Of The
Required Mens Rea
In addition to the absence of an actus reus of
genocide, the evidence in this case also failed to show

28
the necessary proof of the required mens rea to
constitute genocide. The Genocide Convention
requires that any act of genocide, in order to qualify
as such, must be committed with the specific intent
(dolus specialis) to destroy a protected group as
such, in whole or in part. See Genocide Convention,
78 U.N.T.S. at 280. That genocidal intent must be
the only inference that can reasonably be drawn
from the act in question. See Croatia Genocide Case,
2015 I.C.J. at 66, 74; Bosnia Genocide Case, 2007
I.C.J. at 129, 196-97.
Moreover, the aim must be to destroy the
protected group “as such.” This requirement
constitutes an additional necessary element of
genocide. See Niyitegeka v. Prosecutor, Case No.
ICTR-96-14-A, Judgment, ¶ 49 (Int’l Criminal
Tribunal for Rwanda July 9, 2004); Prosecutor v.
Ntakirutimana, Case No. ICTR-96-10-A and ICTR96-17-A, Judgment, ¶¶ 304, 363 (Int’l Criminal
Tribunal for Rwanda Dec. 13, 2004). It was
deliberately added during the drafting process and
is distinct from the dolus specialis to destroy the
protected group. See WILLIAM SCHABAS, GENOCIDE IN
INTERNATIONAL LAW 298-301 (2d ed. 2009).
Requiring an intent to destroy the group “as
such” means that the proscribed acts, in order to
constitute genocide, must have been committed
against the victims because of their membership in
the protected group. See id. This interpretation of
the “as such” formula in the chapeau of Article II is

29
confirmed by the United States’ proposal for an
“Annex on Definitional Elements,” which was part of
its proposed definition of genocide for purposes of the
Rome Statute. See United Nations Diplomatic
Conference
of
Plenipotentiaries
on
the
Establishment of an International Criminal Court,
Proposal Submitted by the United States of
America, “Annex on Definitional Elements for Part
Two Crimes,” U.N. Doc. A/CONF.183/C.1/L.10 (July
9, 1998). Accordingly, the goal to destroy the group,
in whole or in part, must have been a driving motive
for the acts committed against individual group
members. See Matthew Lippman, The Drafting of
the 1948 Convention on the Prevention and
Punishment of the Crime of Genocide, 3 B.U. INT’L L.
J. 1, 41 (1985).
The intent required by Article II(c) is separate
from the general intent required for all forms of
genocide; it is an additional form of specific intent
requiring the intentional infliction of condictions of
life with the purpose of physically destroying the
protected group as such. See SCHABAS, supra, at 177.
Hence, measures meant to force members of a
protected group to leave their home by taking
discriminatory measures, even if they amount to
“ethnic cleansing,” do not constitute acts of genocide.
The jurisprudence of the ICTY confirms this
approach. The ICTY has frequently dealt with
instances of “ethnic cleansing” in cases in which no
genocide charges were brought, or ended up being

30
rejected. See id. at 292-93. In Stakić, for example,
the ICTY emphasized that Article II(c) of the
Genocide Convention may be violated only if the acts
in question are accompanied by methods specifically
seeking the physical destruction of the group.
Stakić, Case No. IT-97-24-T, ¶ 557 (affirmed by
Appeals Chamber in Prosecutor v. Stakić, Case No.
IT-97-24-A, Judgment, ¶¶ 46-48 (Int’l. Criminal
Tribunal for the Former Yugoslavia Mar. 22, 2006)).
It is only if all of these mens rea elements of
genocide were met—i.e., if the persons responsible
for the purchase acted with the intention to destroy
the German Jewish population as such in whole or
in part and that they were also deliberately
inflicting inhuman living conditions upon them
calculated to physically destroy the group—that the
purchase could be found to violate Article II(c) of the
Genocide Convention. Accordingly, even if the
sellers of the Welfenschatz had been treated in a
discriminatory manner owing to their Jewish
ethnicity or religion, this alone did not suffice to
make a finding of genocidal intent under
international law. Rather, it must be shown that the
purchase was conducted with the specific intent of
destroying the Jewish population of Germany as
such, in whole or in part, and that specific intent
must constitute the only reasonable conclusion to be
drawn from the facts of the transaction. See Croatia
Genocide Case, 2015 I.C.J. at 66; Bosnia Genocide
Case, 2007 I.C.J. at 196-97.

31
Once again, there is no evidence to support such
a finding. The record in this case reveals that
Germany attempted to purchase the Welfenschatz
as early as 1930, see Pet. App. 41, immediately after
the Consortium had bought the collection in 1929
and several years before the rise to power by the
Nazi party in 1933, Pet. App. 3. The purchase was
considered to be of major cultural importance
regardless of the political leanings of the actors
involved, because the collection occupied a unique
position in German history and culture. See Jt. App.
62-63. Indeed, despite his clear opposition to the
Nazi regime, as late as 1933, Jewish writer and
politician Erich Mühsam deplored the sale of the
Welfenschatz to the Consortium because, in his
view, it constituted a spoliation of the German
nation. See Patrick M. de Winter, The Sacral
Treasure of the Guelphs, 72 THE BULLETIN OF THE
CLEVELAND MUSEUM OF ART 2, 137 (March 1985).
Given the prevailing economic situation at the
time, the continuous efforts by Germany since 1931
to purchase the Welfenschatz with a view to
protecting its cultural heritage, and the increases in
price offered by Germany to the sellers—from less
than 3.5 million Reichsmark to 3.7 million
Reichsmark to eventually 4.25 million Reichsmark
(which was only 100,000 Reichsmark lower than the
sellers’ last counter-offer), Pet. App. 43-44—there is
simply no basis from which the court could have
found that the purchase was made with the specific
intent of physically destroying the German Jews as

32
such, in whole or in part, as required to make a
finding of genocide.
On this point, it is worth noting that the District
Court of Jerusalem in the Eichmann case had
doubts whether the required strict standard could
even be met for the period prior to 1941—that is
whether the required specific intention to
exterminate the German Jews had existed in
Germany prior to 1941. A-G Israel v. Eichmann, 36
I.L.R. 5, ¶ 80 (Dist. Ct. Jerusalem 1961; reported in
English 1968). Based on that approach, Eichmann
was acquitted of charges of genocide with respect to
acts that had taken place prior to August 1941. Id.
at ¶ 244. In this case, the strict standard would need
to be met for conduct taking place in or before 1935,
that is a period during which Germany—while
taking discriminatory action against members of its
Jewish population—had not yet put in place a
campaign aiming at physically destroying the
German Jews as a group as such in whole or in part.
More specifically, in the present case, where
German authorities had entered into negotiations
with the sellers on the purchase of the Welfenschatz,
significantly increased the offer more than once, and
finally paid a very significant amount for the items,
it cannot reasonably be assumed the purchase was
made for the purpose of physically destroying the
German Jews. This remains true even if one accepts
arguendo that the price was below market value. In
fact, if Germany had intended to exterminate its

33
Jewish population by bringing about conditions of
life calculated to physically destroy the group as
such as early as 1935, German authorities could
have simply seized the Welfenschatz without any
consideration at all.
The facts of the present case are therefore
fundamentally different from other situations
where, for example, members of a protected group
were forcefully stripped of their personal property,
money or food while or after having been deported
into ghettos or concentration camps. The D.C.
Circuit failed to note these differences when it
erroneously concluded, without the required
analysis, that the act in question amounted to
genocide.
CONCLUSION
The D.C. Circuit’s decision in this case is in
conflict with rules of customary international law
regarding State immunity that are legally binding
on all States, including the United States. If left to
stand, it will undermine the decisions of the ICJ and
other domestic and international courts that have
consistently rejected the arguments underlying the
decision of the D.C. circuit and will place the United
States in violation of international law. This Court
should uphold the State immunity of Germany and
its instrumentality, the Stiftung Preußischer
Kulturbesitz, by interpreting the FSIA in conformity
with customary rules of international law.

34
Respectfully Submitted,
Lisa M. Geary
Counsel of Record
RMP, LLP
5519 Hackett Rd.
Springdale, AR 72762
(479) 443-2705
lgeary@rmp.law

